APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Federal Circuit, Warsaw
Orthopedic, Inc. v. Sasso, No. 19-1583
(Oct. 14, 2020) .............................................. App-1
Appendix B
Opinion and Order, United States
District Court for the Northern District of
Indiana, Warsaw Orthopedic, Inc. v.
Sasso, No. 3:18-CV-437 (Jan. 31, 2019) .... App-17
Appendix C
Relevant Statutory Provisions .................. App-28
28 U.S.C. § 1338(a) ............................. App-28
28 U.S.C. § 1295(a)(1)......................... App-28

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________
No. 19-1583
________________
WARSAW ORTHOPEDIC, INC., MEDTRONIC, INC.,
MEDTRONIC SOFAMOR DANEK, INC.,
v.

Plaintiffs-Appellants,

RICK C. SASSO, M.D.,
Defendant-Appellee.
________________
Decided: Oct. 14, 2020
________________
Before NEWMAN, SCHALL, and WALLACH,
Circuit Judges.
________________
OPINION
________________
Newman, Circuit Judge.
This appeal is from the decision of the United
States District Court for the Northern District of
Indiana, 1 dismissing a declaratory judgment
complaint filed by Warsaw Orthopedic, Inc.;
Medtronic, Inc.; and Medtronic Sofamor Danek, Inc.
1 Warsaw Orthopedic, Inc. v. Sasso, No. 3:18-CV-437 JD, 2019
WL 428574 (N. D. Ind., Jan. 31, 2019) (“Dist. Ct. Op.”).

App-2
(collectively, “Medtronic”) against Dr. Rick Sasso, a
surgeon and inventor. The district court dismissed the
complaint without prejudice, applying the doctrine of
federal court “abstention” in view of the concurrent
action in Indiana state court between the same parties
concerning the same dispute; that decision is on
appeal to the Indiana Court of Appeals. 2
The state court action is described by Dr. Sasso as
a contract case for payment for patent rights, and the
federal action is described by Medtronic as a patent
case in which payment requires valid patents.
Medtronic argues that the district court’s “abstention”
was an abuse of discretion, because the federal courts
have exclusive jurisdiction over patent cases, and
patent validity is fundamental to resolution of this
dispute. Thus, Medtronic argues that abstention was
inappropriate because the federal court had the
obligation to receive and resolve this dispute.
We conclude that the district court acted within
its discretion, abstaining without prejudice, on the
facts hereof, for the question of contract interpretation
is on appeal in the Indiana state court, and federal
action based on the federal issues is not precluded.
DISCUSSION

Medtronic’s declaratory judgment complaint
requests a declaration that Medtronic did not violate
its royalty payment obligation as set forth in a certain
Purchase Agreement between Medtronic and Dr.
Sasso (“Agreement”). The Agreement, also called the
Facet Screw Agreement, is dated December 1, 1999
2 Warsaw Orthopedic, Inc. v. Sasso, Appeal No. 19A-PL-00378
(Ind. Ct. App., docketed Feb. 19, 2019).

App-3
and states Medtronic’s terms of purchase of certain
Dr. Sasso inventions. The Agreement provides for
quarterly royalty payments based on Medtronic’s
sales of the defined Medical Device until “the last to
expire of the patents included in Intellectual Property
Rights, or if no patent application(s) issue into a
patent having valid claim coverage of the Medical
Device, then seven (7) years from the Date of First
Sale of the Medical Device.” Agreement ¶ 7.
For the invention at issue, the initial patent
application was filed on November 23, 1999, and two
patents were issued: U.S. Patent No. 6,287,313 (“the
‘313 patent”) and its continuation, U.S. Patent No.
6,562,046 (“the ‘046 patent”); both patents are entitled
“Screw Delivery System and Method.” The record
states that Medtronic made royalty payments from
2002 to 2018.
Proceedings in Indiana state court
A dispute arose, for Dr. Sasso stated that
Medtronic was not paying royalties on sales of all
relevant devices, but Medtronic disagreed. In June
2014, Dr. Sasso filed suit in Marshall Circuit Court,
County of Marshall, State of Indiana, for breach of
contract and damages. 3 Medtronic answered that the
devices for which Dr. Sasso is seeking additional
royalties are not subject to the Agreement because
Dr. Sasso added counts concerning the Facet Screw
Agreement to a similar suit on a different agreement—the Vertex
Agreement. Prior to the Facet Screw Agreement counts being
added, Medtronic had removed the Vertex Agreement suit to
federal court, and the federal court remanded to the state court.
Sasso v. Warsaw Orthopedic, Inc., No. 3:13-cv-1031 (N.D. Ind.
Apr. 2, 2014) (remand order).
3

App-4
they are not covered by a valid claim of the ‘313 or ‘046
patents. Dr. Sasso then filed a “Motion for Summary
Judgment on the Term of the Screw Delivery
Agreement and on Patent Validity as a Defense to
Payment.” The state court granted the motion, ruling:
The amount of money to be paid under the
Agreement and the term depend on the
issuance of patents and their expiration, not
their validity. Patent No. 6,287,313 (“‘313
patent”) or 6,562,046 (“‘046 patent”) issued
and have not expired.
Summ. J. Order, Marshall Circuit Court, No. 50C011806-PL-000027 (Sept. 13, 2018). The state court
excluded the issue of validity from the jury trial. See
Order Excluding Witnesses and Striking the
Affirmative Defense of Patent Invalidity, No. 50C011806-PL-000027 (Sept. 13, 2018) (“All evidence related
to the defense of patent invalidity is excluded.”).
At the trial, the parties disagreed over whether
any claim covered the asserted products. Dr. Sasso
testified that claim 26 of the ‘313 patent is “really
really broad.” Trial Tr. Nov. 9, 2018, at 51. Medtronic
was not permitted to raise any questions concerning
the validity of claims of the asserted scope.
The jury found that Medtronic had breached the
Agreement, and awarded damages. Judgment on the
verdict was entered on November 29, 2018. Medtronic
filed an appeal to the Indiana Court of Appeals.
The federal declaratory judgment action
Meanwhile, on June 8, 2018, Medtronic filed this
declaratory judgment action in federal district court in

App-5
Indiana. The complaint
captioned as follows:

contains

two

counts,

COUNT I
Declaratory Judgment of No Breach of the
Facet Screw Agreement Because No Valid
Claim of the ‘313 or ‘046 Patent Covers the
Medtronic Products for Which Dr. Sasso
Seeks Royalties
***
COUNT II
Declaratory Judgment of No Breach of the
Facet Screw Agreement Because No Claim of
the ‘313 or ‘046 Patents, as Construed by Dr.
Sasso, Is Valid
Complaint, at 13-14. Medtronic stated in the
complaint that the devices for which Dr. Sasso seeks
additional royalties are not within the Agreement, and
the claims as construed to cover such devices are not
valid as required by the Agreement.
In September 2018, Dr. Sasso moved the district
court for “abstention or stay” of the declaratory action,
citing the scheduled November 2018 trial in state
court. The district court did not act before that trial.
After the state court judgment in favor of Dr. Sasso,
he moved the federal court for dismissal of Medtronic’s
declaratory action, stating that the federal court did
not have jurisdiction because the matter had been
decided. Medtronic opposed dismissal, arguing that
the state court erred in law by refusing to permit
Medtronic’s defenses concerning invalidity of the
claims as construed to cover the additional Medtronic
devices.

App-6
The district court dismissed the declaratory
judgment action without prejudice, stating that:
Here, there is no purpose to be served by the
declaratory judgment Medtronic seeks, at
least at this time. Medtronic is asking for a
declaratory judgment that it did not breach
the Facet Screw Agreement and does not owe
Dr. Sasso any damages. But the state court
has already entered judgment in Dr. Sasso’s
favor on that claim. No order or judgment of
this Court can undo that judgment—only the
Indiana courts of appeals and the United
States Supreme Court have authority to
review that judgment.
Dist. Ct. Op. at *3. The district court acknowledged
that the state court decision was being appealed, and
that “it is possible that the state judgment will be
vacated at some point,” but that such possibility did
not affect the present situation. Id. The district court
also cited “the discretion provided by the Declaratory
Judgment Act, assuming but not deciding that
jurisdiction exists.” Id. at *2. The court exercised this
discretion and dismissed the action.
Medtronic now appeals this dismissal, stating
that the federal courts have exclusive jurisdiction over
issues of patent validity, valid claims are required by
the Agreement, and the state court erred in ruling that
validity is irrelevant to royalty payments under the
Agreement. Medtronic points to the requirement in ¶
7 for “valid claim coverage”:
7. Term of Agreement. . . . Unless sooner
terminated, this Agreement shall expire upon
the last to expire of the patents included in

App-7
Intellectual Property Rights, or if no patent
application(s) issue into a patent having valid
claim coverage of the Medical Device, then
seven (7) years from the Date of First Sale of
the Medical Device. . . .
Agreement ¶ 7. Medtronic also points to the Schedules
in the Definitions of the Facet Screw Agreement’s
subject matter:
1. Definitions.
A. The Invention. The Invention shall mean
any product, method or system relating to a
facet screw instrumentation and a headless
facet screw fixation system as described in
Schedule A, attached hereto.
***
C. Medical Device. Medical Device shall mean
any device, article, system, apparatus or
product including the Invention. Such
Medical Devices shall be listed in accordance
with SDH [Sofamor Danek] catalog numbers
and will be listed in Schedule B attached
hereto. . . .
Agreement ¶ 1. Medtronic states: “Schedule A
describes a ‘Facet Screw Instrumentation and a
Headless Facet Screw Fixation System consisting of
bone screws and associated instruments for
installation thereof.’ . . . Schedule B lists ‘Facet Screw
Instrumentation, and A Headless Facet Screw
Fixation System,’” with no listed catalog numbers.
Medtronic Br. 8 n.3.
Medtronic states that royalties under the
Agreement are based on the products set forth in the

App-8
Agreement Schedules, and that those royalties were
regularly and fully paid. Medtronic states that this
dispute concerns “whether Medtronic owes royalties
on other products not listed in Schedules A or B.” Id.
(emphasis in original). Medtronic further states that
valid claim coverage is required by the Agreement,
that patent validity is within exclusive federal
jurisdiction, and that the claims as construed by Dr.
Sasso are invalid.
Dr. Sasso states: “Right or wrong, this state court
ruling is binding.” Sasso Br. 21.
Patent reexamination
Medtronic had, on May 1, 2018, requested Patent
and Trademark Office reexamination of designated
claims of the ‘313 patent and on July 20, 2018, of
designated claims of the ‘046 patent. The PTO granted
the reexaminations, and by Reexamination Certificate
No. 90/014,131 issued January 4, 2019, the PTO
cancelled claims 26-34 of the ‘313 patent; and by
Reexamination Certificate No. 90/014,171 issued
January 24, 2019, the PTO cancelled claims 9 and 1132 of the ‘046 patent.
It appears undisputed that the PTO cancellations
included all the claims that had been construed to
cover the additional Medtronic devices for which
royalties were sought. Medtronic Br. 15-16 & n.6. The
district court acknowledged the reexaminations and
stated that they are “not relevant here.” Dist. Ct. Op.
at *1 n.3. Medtronic states that they are relevant to
the requirement for coverage by valid claims under
Agreement ¶ 7.

App-9
Federal jurisdiction
Dr. Sasso challenges federal jurisdiction. Dr.
Sasso states that the counts of the declaratory
judgment complaint do not “arise under” the patent
law, and thus the district court does not have
jurisdiction under 28 U.S.C. § 1338. Dr. Sasso states
that if the district court does have jurisdiction, then
the court acted within its discretion in abstaining from
the declaratory action. He also states that the Federal
Circuit does not have jurisdiction over this appeal and
that if appeal is available at all, it lies in the Seventh
Circuit, not the Federal Circuit. 4
Medtronic states that district court and Federal
Circuit jurisdiction are present because the
declaratory
judgment
complaint
includes
determinations of patent validity and valid claim
scope. Medtronic argues that this declaratory action
meets the “arising under” standard for federal
jurisdiction, for the federal issues of patent validity
and patent claim scope are “(1) necessarily raised, (2)
actually disputed, (3) substantial, and (4) capable of
resolution in federal court without disrupting the
federal-state balance approved by Congress.” Gunn v.
Minton, 568 U.S. 251, 258 (2013). In NeuroRepair, Inc.
v. Nath Law Group, 781 F.3d 1340 (Fed. Cir. 2015),
this court elaborated that “[a]n issue of patent law is
‘necessarily raised’ if ‘a well-pleaded complaint
establishes either that federal patent law creates the
4 28 U.S.C. § 1338(a) assigns to the federal district courts
original jurisdiction over “any civil action arising under any Act
of Congress relating to patents,” and 28 U.S.C. § 1295(a)(1)
assigns exclusive appellate jurisdiction to the Federal Circuit for
those district court decisions.

App-10
cause of action or that the plaintiff’s right to relief
necessarily depends on resolution of a substantial
question of federal patent law, in that patent law is a
necessary element of one of the well-pleaded claims.’”
Id. at 1344 (quoting Christianson v. Colt Indus.
Operating Corp., 486 U.S. 800, 809 (1988)).
An appellate court has “traditional and inherent
functions [such] as determining its own jurisdiction
and supervising the exercise of jurisdiction by the
district courts below it.” Shaw v. Gwatney, 795 F.2d
1351, 1353 n.2 (8th Cir. 1986). “[I]t is the duty of this
court at all times to consider its own jurisdiction.”
Smith v. Gober, 236 F.3d 1370, 1371 (Fed. Cir. 2001);
see also C.R. Bard, Inc. v. Schwartz, 716 F.2d 874, 878
(Fed. Cir. 1983) (appellate court has jurisdiction to
decide whether the district court had jurisdiction).
Applying the standards of precedent, the issues of
validity and claim scope are well-pleaded in this
declaratory complaint, are actually disputed, are
substantial to the federal system as a whole, and the
federal-state judicial balance would not be disrupted
by the district court’s exercise of declaratory
jurisdiction. Thus, this declaratory action is within the
district court’s jurisdictional authority, and we have
jurisdiction to receive this appeal and to determine
whether the district court abused its discretion in
abstaining from exercise of declaratory jurisdiction.
The district court’s abstention
The Declaratory Judgment Act states that courts
may grant declaratory relief, 28 U.S.C. § 2201(a), and
the Supreme Court has explained that the Act confers
“unique and substantial discretion in deciding
whether to declare the rights of litigants,” Wilton v.

App-11
Seven Falls Co., 515 U.S. 277, 286 (1995). Also, the
Court had stated in Brillhart v. Excess Insurance Co.
of America, 316 U.S. 491 (1942), that federal courts
may and reasonably should abstain from exercising
declaratory jurisdiction when the issues “can better be
settled in [a] proceeding pending in . . . state court.”
Id. at 495.
As summarized in Envision Healthcare, Inc. v.
PreferredOne Insurance Co., 604 F.3d 983 (7th Cir.
2010): “Under what is known as the Wilton/Brillhart
abstention doctrine, district courts possess significant
discretion to dismiss or stay claims seeking
declaratory relief, even though they have subject
matter jurisdiction over such claims.” Id. at 986. The
propriety of a district court’s Wilton/Brillhart
abstention is reviewed on the standard of abuse of
discretion, that is, whether the action “is based on
clearly erroneous findings of fact, is based on
erroneous interpretations of the law, or is clearly
unreasonable, arbitrary or fanciful.” iLOR, LLC v.
Google, Inc., 631 F.3d 1372, 1376 (Fed. Cir. 2011).
Medtronic and Dr. Sasso discuss, but do not
resolve, whether the criterion for measuring
abstention discretion is the potentially more flexible
measure of Wilton/Brillhart or the standard of
Colorado River Water Conservation District v. United
States, 424 U.S. 800 (1976). In Colorado River, the
Court stated that abstention “is an extraordinary and
narrow exception to the duty of a District Court to
adjudicate a controversy properly before it,” stating
that abstention is appropriate “only in the exceptional
circumstances where the order to the parties to repair

App-12
to the state court would clearly serve an important
countervailing interest.” Id. at 813.
The thrust of precedent applying Colorado River
is that a federal proceeding should not be stayed in
favor of a state proceeding when the federal
proceeding includes a claim over which federal courts
have exclusive jurisdiction. See, e.g., Cottrell v. Duke,
737 F.3d 1238, 1248 (8th Cir. 2013) (“[W]e join the
Second, Seventh, and Ninth Circuits and hold that the
Colorado River doctrine may not be used to stay or
dismiss a federal proceeding in favor of a concurrent
state proceeding when the federal proceeding contains
a claim over which Federal courts have exclusive
jurisdiction.”).
The district court here selected the standard of
Wilton/Brillhart as attuned to the situation at hand.
Dist. Ct. Op. at *2. We agree that this was reasonable
on the facts here, for there had already been a trial in
the state court and it is now on appeal at the Indiana
Court of Appeals. The district court also referred to the
Northern District’s 2014 rebuff of Medtronic’s
attempted removal to federal court, see supra n.3,
although the district court remarked that this prior
action is not res judicata. Id. at *1 n.2.
Applying the standard of abuse of discretion, “it is
appropriate to vest district courts with that discretion
‘in the first instance, because facts bearing on the
usefulness of the declaratory judgment remedy, and
the fitness of the case for resolution, are peculiarly
within their grasp.’” Sony Elecs., Inc. v. Guardian
Media Techs., Ltd., 497 F.3d 1271, 1288 (Fed. Cir.
2007) (quoting Wilton, 515 U.S. at 289). Medtronic
challenges this exercise of discretion, arguing that

App-13
patent validity is essential to Dr. Sasso’s claim and
was wrongly excluded from the state court trial,
producing a fatal flaw in the state court proceeding.
In Wilton, the Supreme Court guided that the
federal court must apply, to the facts before it, “a
circumspect sense of its fitness informed by the
teachings and experience concerning the functions
and extent of federal judicial power.” 515 U.S. at 287
(quoting Pub. Serv. Comm’n of Utah v. Wycoff Co., 344
U.S. 237, 243 (1952)). The Court explained that the
Declaratory Judgment Act was designed to create “an
opportunity, rather than a duty, to grant a new form
of relief to qualifying litigants.” Id. at 288. The Court
stated that the federal court should consider the effect
of the concurrent state court proceeding and “whether
the claims of all parties in interest can satisfactorily
be adjudicated in [the state court] proceeding.” Id. at
283 (quoting Brillhart, 316 U.S. at 495).
Precedent illustrates that the discretion to decline
declaratory judgment jurisdiction is not unlimited.
For example, in Capo, Inc. v. Dioptics Medical
Products, Inc., 387 F.3d 1352 (Fed. Cir. 2004), this
court held that it was an abuse of discretion to dismiss
a declaratory action challenging patent validity, when
the dismissal left the accused infringer “unable to
resolve its accused liability for patent infringement.”
Id. at 1357; see also Meyers v. Oneida Tribe of Indians
of Wis., 836 F.3d 818, 823 (7th Cir. 2016) (“[T]here are
numerous circumstances in which a court
appropriately accords priority to a non-merits
threshold inquiry other than subject matter
jurisdiction, such as pendent jurisdiction, forum non
conveniens, abstention, and others.”). Medtronic also

App-14
cites Jang v. Boston Scientific Corp., 767 F.3d 1334
(Fed. Cir. 2014), where the court held that
discretionary dismissal was improper when
“resolution of the contract claim [] requires resolution
of underlying issues of infringement,” id. at 1337,
including the scope and validity of the relevant
patents, and there exists the possibility that those
issues could arise in subsequent infringement
litigation and could create divergent judgments unless
the court maintains appellate jurisdiction, id. at 1338.
Medtronic reminds us that federal courts are not
bound by a state court decision on a matter of federal
law and argues that this too supports proceeding with
federal action.
Dr.
Sasso
responds
that
“[c]ommercial
agreements traditionally are the domain of state law”
and “[s]tate law is not displaced merely because the
contract relates to intellectual property which may or
may not be patentable.” Sasso Br. 23 (quoting Aronson
v. Quick Point Pencil Co., 440 U.S. 257, 262 (1979)). In
Gunn, the Court affirmed that malpractice claims
against a patent attorney are the province of the
states’ “special responsibility for maintaining
standards among members of the licensed
professions,” and that it did not trigger the federal
court’s exclusive pa-tent jurisdiction. 568 U.S. at 264;
see also Christianson, 486 U.S. at 813-17 (discussing
scope of “arising under” jurisdiction).
The Court’s guidance recognizes the variety of
circumstances in which both state and federal
questions are present, and states in Grable & Sons
Metal Products, Inc. v. Darue Engineering &
Manufacturing, 545 U.S. 308 (2005), that “questions

App-15
of [federal] jurisdiction over state-law claims require
careful judgments about the nature of the federal
interest at stake,” distinguishing a “sufficient
condition for federal-question jurisdiction [from] a
necessary one.” Id. at 317 (internal quotation marks
and citations omitted).
Precedent illustrates the variety of circumstances
that may arise, whereby discretion is exercised on
various facts, including whether preclusion should be
afforded to a state court’s ruling on an aspect
otherwise properly before the federal court. For
example, in General Motors Corp. v. Romein, 503 U.S.
181 (1992), the Court held that in applying the
Contract Clause, federal courts are “bound to decide
for ourselves whether a contract was made,” affording
“respectful consideration and great weight,” but not
conclusive deference, “to the views of the State’s
highest court.” Id. at 187 (quoting Indiana ex rel.
Anderson v. Brand, 303 U.S. 95, 100 (1938)). In Titus
v. Wallick, 306 U.S. 282 (1939), the Court
distinguished the deference due to a state court’s
application of the “law of its own state or matters
peculiarly within its cognizance.” Id. at 288. Medtronic
reminds us that for this Agreement the Indiana court
was required to apply Tennessee law, suggesting that
this diminished any entitlement to deference on
contract issues.
Medtronic also cites Bouie v. City of Columbia,
378 U.S. 347 (1964), where the Court disagreed with
the state court’s interpretation of state trespass law to
avoid federal due process. Id. at 361-62. Medtronic
states that precedent shows that preclusion “may in
some contexts” be subject to “[d]octrines of federal pre-

App-16
emption.” Durfee v. Duke, 375 U.S. 106, 114 (1963)
(citing Kalb v. Feuerstein, 308 U.S. 433, 439 (1940)).
As summarized in concurrence in Grable, there is
room for discretion:
The Court faithfully applies our precedents
interpreting 28 U.S.C. § 1331 to authorize
federal-court jurisdiction over some cases in
which state law creates the cause of action
but requires determination of an issue of
federal law, e.g., Smith v. Kansas City Title &
Trust Co., 255 U.S. 180, 41 S.Ct. 243, 65 L.Ed.
577 (1921); Merrell Dow Pharmaceuticals Inc.
v. Thompson, 478 U.S. 804, 106 S.Ct. 3229, 92
L.Ed.2d 650 (1986). . . . Whatever the virtues
of the Smith standard, it is anything but
clear. Ante, at 2367 (the standard “calls for a
‘common-sense accommodation of judgment
to [the] kaleidoscopic situations’ that present
a federal issue, in ‘a selective process which
picks the substantial causes out of the web
and lays the other ones aside.’” (quoting Gully
v. First Nat. Bank in Meridian, 299 U.S. 109,
117-118 (1936))) . . . .
545 U.S. at 320-21 (Thomas, J., concurring).
On the entirety of the circumstances, we conclude
that the district court exercised “common-sense
accommodation of judgment,” id., and did not abuse its
discretion in ab-staining and dismissing without
prejudice.
CONCLUSION

The decision of the district court is affirmed.
AFFIRMED

App-17
Appendix B
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF INDIANA
________________
No. 3:18-CV-437
________________
WARSAW ORTHOPEDIC, INC.,
v.

Plaintiffs,

RICK C. SASSO, M.D.,
Defendant.
________________
Decided: Jan. 31, 2017
________________
OPINION AND ORDER
________________
This case is an offshoot of a long-running licensing
dispute between Dr. Rick Sasso and Medtronic. 1 Dr.
Sasso licensed to Medtronic certain inventions used in
spinal surgeries, for which he also received patents. A
dispute later arose over the scope and duration of the
licensing agreements. Dr. Sasso sued Medtronic in
August 2013 in state court, seeking damages for
breach of an agreement referred to as the “Vertex
Agreement.” Medtronic removed the action to federal
1 The plaintiffs here are actually three separate entities, but
the parties refer to them collectively as Medtronic and do not
otherwise distinguish between them. The Court likewise refers
only to Medtronic.

App-18
court, contending that the claim fell within the federal
courts’ exclusive jurisdiction over patent claims. 28
U.S.C. § 1338. Though the claim itself was for breach
of a licensing agreement, Medtronic argued that the
claim depended on the scope of the patent covering the
invention, so it actually arose under federal patent
law. Judge Miller disagreed and remanded the action
to state court. 2 Sasso v. Warsaw Orthopedic, Inc.,
No. 3:13-cv-1031 (N.D. Ind. Apr. 2, 2014).
After remand, Dr. Sasso filed an amended
complaint in June 2014, asserting an additional claim
for breach of a separate agreement, which Medtronic
refers to as the “Facet Screw Agreement.” Medtronic
did not try to remove the case again, but it argued to
the state court that the claims fell within the federal
courts’ exclusive jurisdiction, thus depriving the state
court of jurisdiction. The state court disagreed and
declined to dismiss the case. Litigation thus continued
for years in state court.
Shortly before trial was scheduled to commence in
November 2018, Medtronic filed this action in federal
court. 3 Medtronic seeks a declaratory judgment that it
That decision is not res judicata as to whether jurisdiction
exists in this case. First, Medtronic’s claim in this case addresses
only the Facet Screw Agreement, which was not at issue in that
case. Second, an unappealable ruling is not res judicata, and an
order remanding a case to state court for lack of jurisdiction is
not appealable. Health Cost Controls of Ill., Inc. v. Washington,
187 F.3d 703, 709 (7th Cir. 1999).
2

3 Medtronic also turned to the United States Patent and
Trademark Office and took the unusual position that its own
patents are invalid. In response, the patent office apparently
invalidated the patents in relevant part. That action is not
relevant here, but it could call into question whether any patent

App-19
did not breach the Facet Screw Agreement, on the
basis that the patents related to that agreement are
invalid and do not cover any of Medtronic’s products.
Medtronic forthrightly characterizes this claim as the
mirror image of Dr. Sasso’s claim for damages under
that same agreement in state court. (Medtronic’s
claims in this action do not address the Vertex
Agreement, which the federal and state courts have
already held do not support federal jurisdiction.)
Dr. Sasso responded by moving to dismiss or stay
this action. He argued that Medtronic’s claim does not
support federal jurisdiction, that it is barred by the
Rooker-Feldman doctrine, and that the Court should
abstain under Colorado River. Medtronic disagreed on
all counts. In the meantime, the state court held a
month-long trial, at the conclusion of which the jury
returned a verdict in favor of Dr. Sasso as to both
agreements. It awarded damages of over $112
million—over $32 million on the Vertex Agreement,
and nearly $80 million on the Facet Screw
Agreement—and the state court entered judgment
accordingly. Dr. Sasso then requested permission in
this case to file supplemental briefs to argue that this
action is barred by res judicata now that judgment has
been entered in state court. The Court granted that
permission, and directed the parties to address
another issue as well: whether the Court should
exercise its discretion to entertain this action under
issues are “substantial” in the sense required to invoke federal
patent jurisdiction. See Gunn v. Minton, 568 U.S. 251, 260 (2013)
(holding that “substantial” refers to “the importance of the issue
to the federal system as a whole,” not its role in the immediate
case).

App-20
the Declaratory Judgment Act, which permits but
does not require courts to enter declaratory
judgments. [DE 27 (citing Wilton v. Seven Falls Co.,
515 U.S. 277, 282 (1995) and Brillhart v. Excess Ins.
Co. of Am., 316 U.S. 491 (1942))].
Having considered all of the parties’ filings, the
Court concludes that dismissal is appropriate under
Wilton and Brillhart, as a declaratory judgment would
serve no legitimate purpose here. Initially, the Court
notes that it has the authority to reach that issue
without first addressing the question of whether
Medtronic’s claim invokes federal jurisdiction. Subject
matter jurisdiction is typically a threshold issue, as it
concerns a court’s authority to hear a case. Courts
thus cannot assume the presence of jurisdiction in
order to decide a case on the merits, even if that would
promote judicial economy. Steel Co. v. Citizens for a
Better Environment, 523 U.S. 83, 101-02 (1998). That
does not mean, however, “that a federal court must
consider subject matter jurisdiction over all other
threshold matters.” Meyers v. Oneida Tribe of Indiana
of Wis., 836 F.3d 818, 821 (7th Cir. 2016). “To the
contrary, ‘a federal court has leeway to choose among
threshold grounds for denying audience to a case on
the merits.” Id. (quoting Sinochem Int’l Co. v.
Malaysia Int’l Shipping Corp., 549 U.S. 422, 431
(2007)); see also Washington v. Sevier, 717 F. App’x
622, 623 (7th Cir. 2018) (“[T]here is no priority among
non-merits-based reasons for dismissing a case.”);
Kromrey v. U.S. Dep’t of Justice, 423 F. App’x 624, 626
(7th Cir. 2011) (“There is no priority among grounds
for not addressing the merits; thus a district judge
may with equal propriety dismiss a suit for lack of

App-21
subject-matter jurisdiction, lack
jurisdiction, or improper venue.”).

of

personal

Because abstaining under Wilton and Brillhart
means the Court does not reach the merits of
Medtronic’s claim, the Court has the authority to rule
on that basis without first addressing subject matter
jurisdiction. Meyers, 836 F.3d at 823 (“[T]here are
numerous circumstances in which a court
appropriately accords priority to a non-merits
threshold inquiry other than subject matter
jurisdiction, such as pendent jurisdiction, forum non
conveniens, abstention, and others.”). That approach
is particularly appropriate here. As discussed below,
Medtronic filed this action in large part to collaterally
attack the state court’s orders, and to use an opinion
from this Court to try to convince the state courts that
they lack jurisdiction. Instead of taking that bait, the
Court confines its analysis to the discretion provided
by the Declaratory Judgment Act, assuming but not
deciding that jurisdiction exists.
Under the Declaratory Judgment Act, a court
“may declare the rights and other legal relations of
any interested party seeking such declaration,
whether or not further relief is or could be sought.” 28
U.S.C. § 2201(a) (emphasis added). The Declaratory
Judgment Act “has been understood to confer on
federal courts unique and substantial discretion in
deciding whether to declare the rights of litigants.”
Wilton, 515 U.S. at 286. The Supreme Court has
“repeatedly characterized the Declaratory Judgment
Act as an enabling Act, which confers a discretion on
the courts rather than an absolute right upon the
litigant.” Id. at 287 (quotation omitted). “[T]he

App-22
propriety of declaratory relief in a particular case will
depend upon a circumspect sense of its fitness
informed by the teaching and experience concerning
the functions and extent of federal judicial power.” Id.
(quotation omitted); Envision Healthcare, Inc. v.
PreferredOne Ins. Co., 604 F.3d 983, 986 (7th Cir.
2010) (“Under what is known as the Wilton/Brillhart
abstention doctrine, district courts possess significant
discretion to dismiss or stay claims seeking
declaratory relief, even though they have subject
matter jurisdiction over such claims.” (quotation
omitted)).
Here, there is no purpose to be served by the
declaratory judgment Medtronic seeks, at least at this
time. Medtronic is asking for a declaratory judgment
that it did not breach the Facet Screw Agreement and
does not owe Dr. Sasso any damages. But the state
court has already entered judgment in Dr. Sasso’s
favor on that claim. No order or judgment of this Court
can undo that judgment—only the Indiana courts of
appeals and the United States Supreme Court have
authority to review that judgment. Exxon Mobil Corp.
v. Saudi Basic Indus. Corp., 544 U.S. 280, 291-92
(2005). Similarly, Medtronic would not stand to
benefit from the declaratory judgment it seeks. See BP
Chemicals Ltd. v. Union Carbide Corp., 4 F.3d 975,
981 (Fed. Cir. 1993) (“A court may decline to exercise
declaratory judgment jurisdiction if it would not afford
relief from the uncertainty, insecurity, and
controversy giving rise to the proceeding.”), abrogated
on other grounds by MedImmune, Inc. v. Genentech,
Inc., 549 U.S. 118 (2007). Even if this Court found that
it had jurisdiction and held that Medtronic was not
liable on Dr. Sasso’s claim, that would not change the

App-23
fact that the state court has entered judgment against
Medtronic. Medtronic will be bound by that judgment
unless and until the judgment is vacated by the state
courts or the United States Supreme Court.
Medtronic surely understands that, yet it never
articulates what purpose would be served by a
declaratory judgment, leading to the conclusion that it
is seeking a declaratory judgment solely because it
believes an order in its favor in this Court would
strengthen its hand in the state courts. That is plainly
not the purpose of the Declaratory Judgment Act. See
EMC Corp. v. Norand Corp., 89 F.3d 807, 814-15 (Fed.
Cir. 1996) (explaining that the purpose of declaratory
judgments in patent cases is to prevent parties from
being coerced by threats of litigation with no ability
determine their rights, noting that the Act frees
competitors from the “in terrorem choice between the
incurrence of a growing potential liability for patent
infringement and abandonment of their enterprises”);
Ford Motor Co. v. United States, 811 F.3d 1371, 1378
(Fed. Cir. 2016) (“Trial courts must determine
whether hearing the case would serve the objectives
for which the Declaratory Judgment Act was created,
namely, allowing a party who is reasonably at legal
risk because of an unresolved legal dispute to obtain
judicial resolution of that dispute without having to
await the commencement of legal action by the other
side.”
(quotation
and
alterations
omitted)).
Medtronic’s quest for a more sympathetic ear for its
arguments, or for an advisory opinion for use in
another court, does not justify a declaratory judgment
action.

App-24
Of course, it is possible that the state judgment
will be vacated at some point. Medtronic has vowed to
appeal, and perhaps it will convince the appellate
courts that the state court lacked jurisdiction over Dr.
Sasso’s claims. 4 If that happens, though, the case
before this Court would no longer be only a declaratory
judgment action; Dr. Sasso would be seeking damages
as well. If the parties return to federal court at that
time, the Court can evaluate its own jurisdiction and
proceed to the merits if appropriate. Until then, there
is no use in proceeding with a declaratory judgment
action.
In opposing abstention, Medtronic relies almost
entirely on its argument that a court has no authority
to abstain from hearing a claim that is within its
exclusive jurisdiction. The Court disagrees. The cases
Medtronic cites for that proposition were not
addressing Wilton-Brillhart abstention, but Colorado
River abstention—a distinct doctrine that is not
analogous. Colorado River abstention is a judge-made
doctrine that created a very narrow exception to the
general rule that courts have a “‘virtually unflagging
obligation’ to exercise the jurisdiction conferred on
them.” Wilton, 515 U.S. at 284. Colorado River
permits a court to abstain in “exceptional
circumstances” when parallel litigation is ongoing in
state court. Colorado River Water Conservation Dist.
v. United States, 424 U.S. 800, 818-20 (1976).
In contrast, Wilton-Brillhart abstention derives
from the text of the Declaratory Judgment Act itself,
4 It is also possible that the appellate courts will reject
Medtronic’s jurisdictional argument but rule in its favor on the
merits.

App-25
which grants discretion by stating that district courts
“may” enter declaratory judgments. Envision, 604
F.3d at 986. Thus, as the Supreme Court held in
Wilton, Colorado River does not govern a court’s
discretion under the Declaratory Judgment Act.
Wilton, 515 U.S. at 286. Medtronic’s argument that
courts “must” enter declaratory judgments upon
request in cases over which they have exclusive
jurisdiction finds no support in the text of the statute. 5
MedImmune, 549 U.S. at 136 (“The Declaratory
Judgment Act provides that a court ‘may declare the
rights and other legal relations of any interested
party,’ not that it must do so.”); see EMC Corp., 89 F.3d
at 814 (“[S]pecial flexibility is called for in the
declaratory judgment context, where ‘the normal
principle that federal courts should adjudicate claims
within their jurisdiction yields to considerations of
practicality and wise judicial administration.’”
(quoting Wilton, 515 U.S. at 288)). In addition, unlike
Colorado
River
abstention,
Wilton-Brillhart
abstention does not depend on whether another action
is pending or could be brought in another forum.
Envision, 604 F.3d at 986 (“[T]he classic example of
The existence of exclusive federal jurisdiction can still be a
relevant factor to consider in deciding whether to exercise that
discretion. But given the lack of any legitimate purpose of a
declaratory judgment here, as already explained, that factor does
not alter the Court’s conclusion. Nor is the Court abstaining
because one party won a race to the courthouse. There was no
race—Medtronic waited for over four years after Dr. Sasso
asserted his claim in state court before filing this declaratory
judgment action on the eve of trial. And unlike Youell v. Exxon
Corp., 74 F.3d 373 (2d Cir. 1996), there is no broader federal
question of first impression that demands resolution in federal
court.
5

App-26
when [Wilton-Brillhart] abstention is proper occurs
where . . . solely declaratory relief is sought and
parallel state proceedings are ongoing. That does not
mean that abstention is limited to parallel
proceedings.”); Teva Pharm. USA, Inc. v. EISAI Co.,
620 F.3d 1341, 1349 (Fed. Cir. 2010), vacated on other
grounds sub nom. EISAI Co. v. Teva Pharm. USA,
Inc., 131 S. Ct. 2991 (2011).
Moreover, courts have commonly considered
Wilton-Brillhart abstention even in patent cases over
which federal courts have exclusive jurisdiction. The
Federal Circuit has acknowledged on multiple
occasions that courts have discretion whether to
entertain a declaratory judgment action for patent
noninfringement. Teva, 620 F.3d at 1348-49; Capo,
Inc. v. Dioptics Med. Prods., Inc., 387 F.3d 1352, 1357
(Fed. Cir. 2004) (stating, in an action for a declaration
of noninfringement, that “[t]here is indeed discretion
in the district court with respect to declaratory
actions.”); EMC Corp., 89 F.3d at 814-15; see also Trost
v. Bauer, No. 01 C 2038, 2001 WL 845477 (N.D. Ill.
July 24, 2001) (declining to exercise jurisdiction over
a declaratory judgment action for noninfringement).
Likewise, in MedImmune, the Supreme Court held
that an “actual controversy” existed sufficient to
support a declaratory judgment action by a patent
licensee that sought a declaration that the patent was
invalid and did not cover the licensee’s product. After
reaching that holding, the Supreme Court remanded
the case to the lower courts with instructions to
exercise discretion under Wilton and Brillhart in
deciding whether to entertain the declaratory
judgment action. 549 U.S. at 136. That holding is

App-27
irreconcilable with Medtronic’s argument that no such
discretion exists.
For those reasons, the Court concludes that it has
discretion to decide whether to entertain this
declaratory judgment action. And since Medtronic has
not identified any legitimate purpose that would be
served by, or any way in which it stands to benefit
from, a declaratory judgment in light of the judgment
in state court, the Court declines to exercise
jurisdiction. The Court therefore DISMISSES this
action without prejudice. The Clerk is DIRECTED to
enter judgment accordingly and close the case. The
pending motions—the initial motion to stay, a motion
for oral argument, and two motions to supplement
that addressed issues not pertinent to this analysis—
are DENIED as moot. [DE 17, 20, 23, 31].
SO ORDERED.
ENTERED: January 31, 2019
/s/ JON E. DEGUILIO
Judge
United States District Court

App-28
Appendix C
RELEVANT STATUTORY PROVISIONS
28 U.S.C. § 1338(a)
(a) The district courts shall have original jurisdiction
of any civil action arising under any Act of Congress
relating to patents, plant variety protection,
copyrights and trademarks. No State court shall have
jurisdiction over any claim for relief arising under any
Act of Congress relating to patents, plant variety
protection, or copyrights. For purposes of this
subsection, the term “State” includes any State of the
United States, the District of Columbia, the
Commonwealth of Puerto Rico, the United States
Virgin Islands, American Samoa, Guam, and the
Northern Mariana Islands.
28 U.S.C. § 1295(a)(1)
(a) The United States Court of Appeals for the
Federal Circuit shall have exclusive jurisdiction—
(1) of an appeal from a final decision of a district
court of the United States, the District Court of
Guam, the District Court of the Virgin Islands, or
the District Court of the Northern Mariana
Islands, in any civil action arising under, or in any
civil action in which a party has asserted a
compulsory counterclaim arising under, any Act
of Congress relating to patents or plant variety
protection;

